                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: 107060020                                                       11          Page 1 of 1



          This investigation was initiated based upon information provided al1eging.a conflict of interest
          violation by a PI' on an NSF award2 at a university'. The PI was allegedly directly sudervising
          his son and his son was receiving a full assistantship funded by the NSF award.'

          A final report4 for this award was reviewed and a student5 with the same last name as the PI was
          listed as having been recruited to work on the award. The NSF Program officer6 was contacted
          and advised that he had not received information or been informed of any conflict of interest on
          this award. The University was contacted and asked to provide information and documentation
          regarding this matter. The University confirmed that the student listed in the final repoh was
          indeed the son of the PI but advised that the son had not worked on the IVSF award nor received
          any pay or compensation from this award.

          A review of the documents provided found that requests for a waiver of the nepotism rule were
          documented as early as 2002. However, a June 2003 memorandum noted the violation of the
          nepotism rule stating that the PI's son was found working in the same facility as his father. This
          was immediately corrected, according to documentation provided, and the son was assigned to
          work for another professor7 and subsequently assigned to work under the CO-PI' on this NSF
          award. Additional waiver requests were noted and it appears that all waiver requests were    '


          approved. Also provided were copies of the ledger, payroll records, and effort'reports which
          showed that the PI's son was not paid with funds from the NSF award.

          No further investigative efforts are required in this case.

          Accordingly, this case is closed.




 USF OIG Form 2 (1 1/02)
